5082
IN THE SUPREME COURT OF THE
UNITED STATES

!/i
Supre

™ Cow, US.

Jui - S 2021
BENJAMIN MICHAEL DUBAY,

OPRCEjOF

It!iCLERK

Petitioner,

v.

STEPHEN KING,,
MEDIA RIGHTS CAPITAL,
IMAGINE ENTERTAINMENT,
SONY PICTURES ENTERTAINMENT,
MARVEL ENTERTAINMENT, et al.
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals Eleventh Circuit.

PETITION FOR WRIT OF CERTIORARI

Benjamin Michael DuBay,
Pro Se
69 Peter Island Drive
St Augustine FL, 32092
727-656-3595
Benjamin.dubay@gmail.com
July 8, 2021
Pro Se

RECEIVES—
JUL 1 3 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1

QUESTIONS PRESENTED
1. The Copyright Act defines statutorily eligible works in 17
U.S.C. § 102(a). While § 102(a) does not list Comic Book
Characters, some Circuit Courts have held that comic book
characters are independently protected as components of
copyrighted works due to the character’s original and
consistent aggregation of traits and to characters that are so
important to the work that they are considered the story told.
Yet, despite the lack of prior art for Restin Dane’s essential
aggregation of traits and Restin being the story told, the
Eleventh Circuit denies protection for Restin independently.
The first question for this Court is whether distinctive
characters, like comic book characters, are protected
independently from the copyrighted work due to their original
and consistent aggregation of traits, and if so, whether said
aggregations are the proper points of comparison?
2. There is a split among the circuits as to whether
copyrightability and degree of similarity involve questions of
fact. If so, this Court holds that such questions of fact are
resolved by the jury—not by a judge’s subjectiveness where
Constitutional rights are concerned. Feltner v. Columbia
Pictures Television, Inc., 523 U.S. 340 (1998).
The second question for this Court is whether copyrightability
and degree of similarity involve questions of fact for the jury?
3. This Court tasked the District Courts to serve as gatekeepers
to ensure that expert evidence is trustworthy. Daubert v.
Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, (1993).
The third question for this Court is whether it is reliable that
a real party in interest serving as an expert witness would
purely opine, using a soft science, against said interest?

11

PARTIES TO THE PROCEEDING
In addition to the parties listed in the caption, Benjamin
Dubay was also a Plaintiff in the District Court and Appellant
in the Eleventh Circuit. William DuBay, LLC was a Plaintiff,
however said entity was removed prior to Summary
Judgment.
RULE 29.6 STATEMENT
Petitioner Benjamin Dubay is an individual. As such, there
are not Amended Corporate Disclosure Statements that
pertain.
STATEMENT OF RELATED PROCEEDINGS
There are no proceedings in any court that are directly related
to this case other than the proceeding from which this petition
arises: Dubay v. Stephen King, et. al., No. 19-11224, Am.
Opinion (11th Cir. February 23, 2021), addressing appeal from
Dubay v. Stephen King, et. al., No. 3:17-cv-00348-J-20MCR,
Judgment (March 4, 2019).

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

11

RULE 29.6 STATEMENT

li

STATEMENT OF RELATED PROCEEDINGS

li

TABLE OF AUTHORITIES

v

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED............................

2

INTRODUCTION

3

STATEMENT OF THE CASE

4

I. Factual Background

6

II. The District Court Proceeding

8

III. The Eleventh Circuit Decision

9

REASONS FOR GRANTING THE WRIT
I.

10

This Court should decide if comic book characters
are protected independently from the copyrighted
work, and if so, whether said aggregations are the
10
proper points of comparison

IV

II.

This Court should grant review to address as to
whether copyrightability and degree of similarity
involve questions of fact for the jury
13

III.

This Court should grant review to address
whether it is reliable for a real party in interest,
who serves as an expert, to purely opine against
said interest
15

IV.

This Court needs to resolve this uncertainty
because this issue is of Constitutional importance
19

V.

This case presents exceptionally important issues
and is an ideal vehicle for review
20

CONCLUSION

22

APPENDIX
Appendix A - Eleventh Circuit Amended Order and Denial of
Rehearing Petition

1-22

Appendix B - Eleventh Circuit Original Opinion

1-18

Appendix C - District Court Order (Rehearing)

1-5

Appendix D - District Court Order (Summary Judgment)
.................................................................................................. 1-32

V

TABLE OF AUTHORITIES
CASES
Bleistein v. Donaldson Lithographing Co.,
188 U.S. 239, 251 (1903)....................

10

Baxter v. Palmigiano,
425 U.S. 308, 316 (1976)

19

Compulife Software Inc. v. Newman,
959 F.3d 1288, 1305-1306, 310. (11th Cir. 2020)

11

Daniels v. Walt Disney Co.,
952 F.3d 1149, 1155 (9th Cir. 2020)

11

Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579, 580 (1993)...........................

5-, 8, 15-18

DC Comics v. Towle,

802 F.3d 1012, 1019, 1021-1022 (9th Cir. 2015)
Dimick v. Schiedt,
293 U.S. 474, 486 (1935)

11

19

Feltner v. Columbia Pictures Television, Inc.,
523 U.S. 340, 355 (1998).........................

3, 19

Fleischer Studios, Inc. v. Ralph a Freundlich, Inc,
73 F.2d at 276, 278 (2d Cir. 1934)......... ........

3, 14

General Electric Co. v. Joiner,
522 U.S. 136, 137 (1997)

18

Goldstein v. California,
412 U.S. 546, 555 (1973)

18

Harper & Row, Publishers, Inc. v. Nation Enterprises,

VI

471 U.S. 539, 546 (1985)

-3, 14, 21

Herzog v. Castle Rock Entertainment,
193 F.3d 1241, 1247 (11th Cir. 1999)

13

Jacob v. New York,
315 U.S. 752, (1942)

20

Judi Boisson v. Banian Ltd,
F.3d 262, 272 (2d Cir. 2001)
Kumho Tire Co. v. Carmichael,
526 U.S. 137....................

9

16-17

Peter Letterese & Associates, Inc. v. World Institute of
Scientology Enterprises, International,
533 F.3d 1287, 1315 (11th Cir. 2008).
14
Stewart v. Abend,
495 U.S. 207, 229 (1990)

21

Suntrust Bank v. Houghton Mifflin Co.,
268 F.3d 1257, 1271 (11th Cir. 2001)

12

United States v. Downing,
753 F. 2d 1224, 1242 (6th Cir. 1985)

17

United States v. Throckmorton,
98 U.S. 61, 64 (1878).......
Warner Bros. v. Am. Broadcasting Companies,
720 F.2d 231, 242-243 (2d Cir. 1983)......

5-6

10, 13-14

STATUTES AND LEGISLATIVE MATERIALS
Declaration of Independence
Article I, Section 8, Clause 8 of the U.S. Constitution

20
2

Vll

Amendment VII to the U.S. Constitution

2-3, 19-20

Amendment XIV, Section 1 to the U.S. Constitution

2

17U.S.C. § 102(a)

2

17U.S.C. §106

2

17U.S.C. § 506 (a)
18 U.S.C. § 1001 (a)
18 U.S.C. §2319

19
5

19

OTHER AUTHORITIES
Federal Rules of Appellate Procedure Rule 34

9

The Worst Evidence Principle:
The Best Hypothesis as to the Logical Structure of Evidence
Law, 46 U. Miami L. Rev. 1069, 1089 (1992)
18

1

PETITION FOR WRIT OF CERTIORARI
Petitioner Benjamin Dubay petitions for a writ of
certiorari to review the judgment of the United States Court
of Appeals for the Eleventh Circuit in this case.
OPINIONS BELOW
The order denying the petition for panel rehearing and
rehearing en banc, App. A p. 22, is not reported. The amended
opinion of the court of appeals, App. A p. 1-21, is not reported
The original opinion of the court of appeals, App. B p. 1-18, is
not reported. The opinion and order of the United States
District Court granting defendants’ motion for summary
judgment, App. D p. 1-32, is not reported. The opinion and
order of the United States District Court denying Plaintiffs
motion for rehearing, App. C p. 1-5.
JURISDICTION
The Eleventh Circuit entered judgment on February 23, 2021.
App. 19a-38a. On February 23, 2021, the court of appeals filed
an order amending its opinion. App. 39a-46a. On April 16,
2021, the court of appeals filed an order denying the
Petitioner’s timely petition for panel rehearing and rehearing
en banc. App. la-2a. Jurisdiction of this Court is proper under
28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISIONS AND STATUTES
Article I, Section 8, Clause 8 of the U.S. Constitution:
“To promote the Progress of Science and useful Arts, by
securing for limited Times to Authors and Inventors the
exclusive Right to their respective Writings and Discoveries.”
Amendment VII to the U.S. Constitution: “In Suits at
common law, where the value in controversy shall exceed
twenty dollars, the right of trial by jury shall be preserved,
and no fact tried by a jury, shall be otherwise re-examined in
any Court of the United States, than according to the rules of
the common law.”
Amendment XIV, Section 1 to the U.S. Constitution: “No
state shall make or enforce any law which... nor deny to any
person within its jurisdiction the equal protection of the laws.”
17 U.S.C. § 102(a): “(a) Copyright protection subsists, in
accordance with this title, in original works of authorship
fixed in any tangible medium of expression, now or later
developed, from which they can be perceived, reproduced, or
otherwise communicated, either directly or with the aid of a
machine or device. Works of authorship include the following
categories:
(1) literary works;
(2) musical works, including any accompanying words;
(3) dramatic works, including any accompanying music;
(4) pantomimes and choreographic works;
(5) pictorial, graphic, and sculptural works;
(6) motion pictures and other audiovisual works;
(7) sound recordings; and
(8) architectural works.”
17 U.S.C. § 106: “Subject to sections 107 through 122,
the owner of copyright under this title has the exclusive rights
to do and to authorize any of the following: ...
(2) to prepare derivative works based upon the
copyrighted work~”

3

Introduction
For almost 100 years, the courts with the predominant
load of Comic Book Character Copyright Infringement
matters have held that comic book characters are protected by
copyright, independently from the story, due to the expressive
aspect of their original and creative aggregations of traits, and
that the reproduction of the essential traits of a copyrighted
character, save for insignificant or fair uses, is copyright
infringement, but not all circuits adhere to these standards.
The rights to a monopoly over such creative discoveries
are enumerated in the Constitution, excepted only by non­
infringement as a matter of law; controlled by the de
minimis rule and the doctrine of fair use. Therefore, the
Courts finding congruence in Restin Dane’s “most significant
and representative” aggregations of traits can only be availed
through prior art or fair use. Notwithstanding, the District
Court for the Middle District of Florida and Eleventh Circuit
Court of Appeals found for Petitioner but ruled for
Respondents by not carefully considering Copyright Law,
prior decisions in its Sister Circuits and This Court, or the
Constitutional maxims of exclusive derivative use, right to
factual determination by jury, and equal protection.
The controlling doctrines, rules and laws reveal the selfevident truth. Respondent King gained access to the original,
creative, and important parts of Restin Dane that Roland
Deschain is second comer to. Harper & Row, Publishers, Inc.
v. Nation Enterprises, 471 U.S. 539, 546 (1985). There is
infringement. Fleischer Studios, Inc. v. Ralph a Freundlich,
Inc, 73 F.2d at 276, 278 (2d Cir. 1934).
This Court should address whether copyrightability and
degree of similarity involve questions of fact; the outcome of
which has Constitutional importance. This Court has held
that the Seventh Amendment attaches to fact disputes in
copyright cases. Feltner v. Columbia Pictures Television, Inc.,

4

523 U.S. 340, 355 (1998). If copyrightability and degree of
similarity involve questions of fact, then Courts—like the
Eleventh Circuit here—violate discoverers’ Constitutionally
guaranteed right to exclusive use in derivative works, when
holding that “not substantially similar” means something
other than de minimis or fair use, rather than properly finding
non-infringement as a matter of law. This issue is important
and ripe for This Court to rule because the relevant facts are
on the record, and the Eleventh Circuit is at conflict with its
Sister Circuits’ and This Court’s holdings in like matters.
This Court should also accept review because the
Eleventh Circuit erred by not carefully considering that the
concealed financial interest of Robin Furth and material
omissions of the evidence proffered, coupled with Furth
misrepresenting those facts at deposition, renders the
evidence untrustworthy because This Court holds that an
expert’s testimony, on cross-examination, is inextricably
linked to that opinion evidence. This Court should hold that a
financially interested expert’s opinions, based on a soft
science, are inadmissible at the Summary Judgment phase,
or at all, because it is proven unreliable for a real party in
interest to purely opine against themselves. This holding
would protect all parties from a real party in interest creating
or concealing material facts to create or eliminate questions
of fact; otherwise permitting advocacy in lieu of objectivity.
STATEMENT OF THE CASE
Petitioner/Plaintiff interposed this litigation seeking to
protect Restin Dane AKA “The Rook”, a comic book character
whose descriptive traits are “distinctive in combination” as
expressed.
After Discovery, the Respondents/Defendants moved for
Summary Judgment asserting that Restin “alone may be
protectible by copyright law” but “Roland is not substantially
similar in protectible expression” to Restin “because those few

5

features... that are distinctively delineated are not part of
Roland”. Copyrightability is conceded. Congruence of the
essential aggregation of traits, presumed original, was found.
App D p. 19-29.
Neither Court was convinced that respondent Stephen
King independently created Roland free of access to Restin.
App A p. 10. Rather, both Courts found congruence in Restin’s
original and essential aggregations but found the characters
to have “different stories and contexts”, App. A p. 18., despite
not having read The Dark Tower. App. D, p. 10.
Respondents deposited a hotly contested opinion
summary, prepared by Robin Furth, a real party in interest
disguised as an expert, in lieu of The Dark Tower novels and
comic books that she co-authored. The District Court found
that Roland is a time-traveler, and that Furth is financially
interested in the litigation, contrary to Furth’s testimony.
App. D, p. 10-11, 20-21.
A witness, “in any matter within the jurisdiction of the...
judicial branch of the Government of the United States,
knowingly and willfully- (1) falsifies, conceals, or covers up by
any trick, scheme, or device a material fact” has committed a
fraud on the Court. 18 U.S.C. § 1001 (a). “There is no question
of the general doctrine that fraud vitiates... judgments.”
United States v. Throckmorton, 98 U.S. 61, 64 (1878).
Neither Court performed a proper Daubert analysis
because both found that Furth was financially interested; a
discrediting factor of the peer standards controlling the
operation of a close reading methodology- according to Furth.
Ultimately, the issues were so close, the Circuit Court
required oral argument. The Eleventh Circuit upheld the
District Court’s findings and ruling.

6

A. Factual Background.
This case provides a unique opportunity for This Court
to apply the Constitutional maxims of equal protection,
exclusive derivative use, right to factual determination by
jury as well as This Court’s safeguards held in Daubert and
Throckmorton.
The Eleventh Circuit found for Petitioner by finding
congruence in the aggregations of Restin Dane’s important
parts (App D p. 19-28); by not finding prior art for those
aggregations (App. D, p. 29 footnote); by not properly finding
non-infringement as a matter of law- rather by finding that
the differences in the stories and contexts were a permissible
use (App. A, p. 18); by not finding that Respondent King
independently created Roland Deschain free of access to those
original and important aggregations of traits (App D p. 30); by
finding that Furth is financially interested contrary to her
testimony (App D p. 10-11); and by finding that Roland timetraveled despite this material fact being concealed from
Furth’s opinion summary evidence. (App D. p. 20).
By finding congruence in 14 of Restin Dane’s essential
elements (App D p. 19-28), and by not finding prior art for the
aggregation of those elements (App. D p. 29 footnote), evident
by not being able to determine unprotectability, The Eleventh
Circuit found substantial similarity instead of properly
determining non-infringement as a matter of law.
The 14 most significant and representative (App Dp. 19)
traits the District Court found congruent are:
1. Both are adventure seekers. App. D p. 20
2. Both time-travel which is central and the hook to Restin.
App D p. 20-21.
3. Both are familial gunslingers. App D p. 21-22.
4. Both castle towers play a large role. App D p. 22.
5. Both have a similar overall look in Old West gunslinger
garb. App D p. 24.
___

7

6. Both have similar names. App D p. 26.
7. Both have similar histories. App D p. 27.
8. Both have similar birds that are featured. App D p. 27-28.
9. Both are brave. App D p. 28.
10. Both are excellent marksman. App D p. 28.
11. Both are born leaders. App D p. 28.
12. Both are determined. App D p. 28.
13. Both excel in hand-to-hand combat. App D p. 28
14. Both are monster fighters. App D p. 28.
The District Court improperly decided that the
individual ideas and aggregations are not substantially
similar subjectively, rather than determining non­
infringement as a matter of law by filtering the aggregations
through prior art to establish lack of originality; or by
determining de minimis use of those original aggregations; or
by finding permissible use by applying the doctrine of fair use.
Subjective determinations are for the jury to make.
The District Court admits that it was unable to
determine un-protectability (App D p. 29 footnote) due to the
lack of prior art for those aggregations. The rule then, is for
The Court to simply assume that the aggregations are
protectable and include those in the final substantialsimilarity comparison.
Restin Dane was also found to be so important to the
work that he is the story told. App Dp. 20.
The Eleventh Circuit found congruence in the plead
similarities without finding prior art, but determined the
characters were not substantially similar in their stories and
contexts- imposing its subjectiveness where Constitutional
rights are concerned.
Without finding prior art, both Courts found congruence
in Restin Dane’s original and important aggregations of
traits. The Courts have found for Petitioner but have denied
Restin Dane equal protection as other characters have been

8

protected in most circuits and have denied Petitioner equal
protection, factual determinations by jury and monopolistic
use, each guaranteed under The United States Constitution.
B. The District Court’s Proceeding.
The District Court’s ruling is in conflict with its Sister
Circuits and This Court’s prior holdings. The District Court
did not carefully consider Daubert or the Constitutional
maxims of exclusive derivative use, right to factual
determination by jury, and equal protection under the law.
The District Court has improperly imposed its subjectiveness
where Constitutional rights are concerned.
The Daubert standards were not carefully considered.
Had they been, Furth’s concealed financial interests, coupled
with impeachment of her summary opinion through the works
that she purports to have summarized, would have rendered
her opinion as untrustworthy.
Despite that, the District Court found congruence in
Restin Dane’s most significant and representative set of traits,
some of which played a large role, were featured, were central
and/or were Restin Dane’s hook. The District Court
acknowledges that it could not determine un protectability;
when that is what the Court must do, here, to determine non­
infringement as a matter of law.
Instead, the District found that the characters were
different in the stories because the characters’ personalities
are different. The District Court found Roland to be darker
(App. D p. 29), but the District Court also found that Roland
softens during the series (App. D p. 23) and that Roland
trained from childhood to be a hero. (App. D p. 22). The degree
of similarity, as well as the degree of softening that Roland
experiences throughout the series and how that softening
impacts Roland’s darkness as a hero, are factual
determinations that are Constitutionally bound for the jury.

9

C. The Eleventh Circuit Decision.
The Eleventh Circuit Court of Appeals upheld The
District Court’s findings as well reasoned- agreeing that
“different stories and contexts” equals not “substantially
similar”. App. A p. 18. The Eleventh Circuit, in effect, denied
protection to a distinctive character independently from the
story, not carefully considering that repheating Restin’s
essential elements and original aggregations of traits requires
prior art to determine non-infringement as a matter of law
because the flipside of substantial similarity is de minimis
and fair use. Neither were found.
The Eleventh Circuit Court of Appeals did not find prior
art for the aggregations. Rather, The Eleventh Circuit Court
of Appeals reduced the aggregations to their underlying ideas,
not carefully considering that all creative works can,
similarly, be reduced to ideas- negating Copyright protection.
App A p. 10-14. Judi Boisson v. Banian Ltd, F.3d 262, 272 (2d
Cir. 2001).
The Eleventh Circuit Court of Appeals did not reach its
decision easily. In fact, the Eleventh Circuit Court of Appeals
Panel is required to deny Oral Argument when:
“(A) the appeal is frivolous; (B) the dispositive
issue or issues have been authoritatively decided;
or (C) the facts and legal arguments are
adequately presented in the briefs and record, and
the decisional process would not be significantly
aided by oral argument.” FRAP 34.
It is not sufficient that the decisional process could be
aided. The standard is that the process would be significantly
aided by oral argument; that the record was not sufficient to
affirm; and that sufficient authority does not exist to affirm
said lower Court’s ruling. The Jury, not the Panel, is the
Constitutional safeguard for factual determinations because

10

it “would be a dangerous undertaking for persons trained only
to the law to constitute themselves final judges of the worth
of pictorial illustrations [or other creative works], outside of
the narrowest and most obvious limits.” Bleistein v.
Donaldson Lithographing Co., 188 U.S. 239, 251 (1903).
The Eleventh Circuit Court of Appeals acknowledges
that the issues were too close to decide. These are not the
narrowest limits This Court has granted such authority.
The Eleventh Circuit Court of Appeals upheld the
District Court’s findings regarding Furth’s evidence.
Exclusive right to derivative use was denied. Right to
factual determination by jury was denied. Equal protection
was denied. These rights are guaranteed by the Constitution.
REASONS FOR GRANTING THE WRIT
I. This Court should decide if comic book characters
are protected independently from the copyrighted
work, and if so, whether said aggregations are the
proper points of comparison.
Most modern courts adhere to two tests for protectability
beyond the written stories. Landmark cases in the Second and
Ninth Circuits provide guidance based on well rooted logic.
The Eleventh Circuit’s “different stories and contexts” equals
not “substantially similar”, App. A p. 18., is at conflict with its
Sister Circuits’ holdings that distinctive characters are
independently protected from the story due to their original
and creative aggregation of traits.
“A character is an aggregation of the particular
talents and traits his creator selected for him. That
each one may be an idea does not diminish the
expressive aspect of the combination.” Warner
Bros. v. Am. Broadcasting Companies, 720 F.2d
231, 243 (2d Cir. 1983).

11

“ [Characters that are especially distinctive, or the
story being told, receive protection apart from the
copyrighted work.” Daniels v. Walt Disney Co., 952
F.3d 1149, 1155 (9th Cir. 2020).
The character must be “sufficiently delineated and display
consistent, widely identifiable traits.” DC Comics v. Towle,
802 F.3d 1012, 1019 (9th Cir. 2015). The Court in Towle
recognized the necessity of changes in context in episodic
works, i.e. Batmobile as a tank or missile (Id.), because
changes in context that do not alter the original aggregation
of characteristics are Petitioner's right to derivatives or else
that right is not exclusive. Respondents’ expert, Robert Gale,
agrees that Restin is copyrightable under Towle.
The District Court found that there is insufficient evidence
to find that Restin’s aggregations were un-protectable. App. D
p. 29 footnote. “Protectability can [not] practicably be
demonstrated affirmatively but, rather, consists of the
absence of the various species of un protectability.” Id.
Compulife Software Inc. v. Newman, 959 F.3d 1288, 13051306, 310. (11th Cir. 2020). “If, for instance, the defendant
believes that some part of the copyrighted work is in the
public domain, he must narrow the inquiry by indicating
where in the pubhc domain that portion of the work can be
found.” Id. Yet, Respondents do not point to anywhere in the
public domain showing that the aggregations are unoriginal.
The “court should simply assume that the [aggregations are]
protectable and include that element in the final substantialsimilarity comparison between the works” Id.
“[T]here is a hierarchy of copyright protection in
which original, creative works are afforded greater
protection than derivative works or factual

12

compilations,” Suntrust Bank v. Houghton Mifflin
Co., 268 F.3d 1257, 1271 (11th Cir. 2001).
Reducing the aggregations of Restin’s traits to their
underlying ideas, reduces creative works beneath factual
compilations in the hierarchy of copyright protection. Gail
points out that, while time-travel and a Delorean car are not
independently protectible, a second comer would appropriate
a substantial part of Back to the Future if they were to
combine time-travel and a car, because he was first.
Two leading historians, Richard Arndt and Jeff Rovin,
have testified to the absence of Restin’s aggregations in the
public domain. Both historians agree with Gale that Restin is
entitled to protection. Respondent Marvel has relied on Rovin
in like matters for four decades- and still do. Rovin testified
that the conclusion must be copying of Restin Dane’s original
aggregations, based on his observations as an uninterested
layman and his fact knowledge as a comic book historian. App.
D p. 30. Rovin is a fact witness.
The District Court has also found Restin Dane to be so
important to the work that he is the story being told.
The Eleventh Circuit has denied Restin Dane
protection, as a distinctive character, due to his consistent
aggregation of traits for which there is an absence of prior art,
independently from the story; and even when he is so
important to the work that Restin Dane is the story told. The
Eleventh Circuit is in conflict with its Sister Circuits.
Petitioner has the exclusive right to use Restin’s original
and consistent aggregation of traits, save for de minimis or
fair use. Otherwise, Copyright Law is Un-Constitutional.

13

II.

This Court. should grant , review to address
whether copyrightability and degree of similarity
involve questions of fact for the jury to determine.

Summary judgment, historically, has been withheld in
copyright cases because courts do not impose their
subjectiveness where Constitutional rights are concerned.
Herzog v. Castle Rock Entertainment, 193 F.3d 1241, 1247
(11th Cir. 1999). The Circuit Courts have invoked two distinct
doctrines to prove non-infringement as a matter of law. Id.
"First, a de minimis rule has been applied,
allowing the literal copying of a small and usually
insignificant
portion
of
the
plaintiffs
work. Second, under the ‘fair use’ doctrine, courts
have allowed the taking of words or phrases when
adapted for use as commentary or parody.” Warner
Bros., 720 F.2d 231, 242-243.
Petitioner plead that Restin was the first character to
dress in Old West gunslinger garb and have the ability to
time-travel, whether or not the character was from the Old
West. Here, neither is. Respondent denied that Roland is a
time-traveler that dressed in Old West gunslinger garb.
Despite Respondents’ play on words, both Courts found that
Roland does time-travel and dress in Old West gunslinger
garb. Roland’s works were published after Restin displayed
this original aggregation of traits. The District Court found
time-travel to be the hook and central to Restin.
The District Court also found that Restin’s bird is
featured, and that his castle played a large role. Each are
essential to Restin’s alter identity as The Rook. Gale admits
that both are original to Restin. Tellingly, both Restin and
Roland adopt the identity of their bird before battle and that
of a gunslinger-knight by living in a castle, but only Restin

14

was first. The congruence of the original aggregations of these
characteristics, components of the fourteen most significant
and representative parts of Restin, is only excepted by non­
infringement through prior art or fair use.
Neither Court found that Roland is a parody or
commentary of Restin and the Courts “do not accept [the]
mode of analysis whereby every skill the two characters share
is dismissed as an idea rather than a protected form of
expression. That approach risks elimination of any copyright
protection for a character, unless the allegedly infringing
character looks and behaves exactly like the original.” Warner
Bros., 720 F.2d 231, 242-243. Otherwise, Roland would have
to be strikingly similar just to be substantially similarconflating the thresholds.
Can a second comer appropriate the original, creative,
and important parts of Spider-man and make him serve the
underworld to avail infringement? No, “a jury would have to
make the factual determination whether the second character
was [Spiderman] gone astray or a new addition to the
superhero genre.” Warner Bros., 720 F.2d 231, 242-243.
“The essential characteristics of [Petitioner’s]
copyrighted character are reproduced... ‘It was a
unique combination’... as depicted... There is
infringement”. Fleischer Studios, Inc., 73 F.2d at
276, 278.
The District Court found congruence in Restin’s most
significant and representative aggregation of traits. Peter
Letterese & Associates, Inc. v. World Institute of Scientology
Enterprises, International, 533 F.3d 1287, 1315 (11th Cir.
2008). Harper & Row, Publishers, Inc., 471 U.S. 539, 546.

15

The District Court found that Roland is second comer to
a substantial part of Restin’s original aggregation of traits by
not finding prior art or fair use.
If the Courts are authorized to fact find the degree of
similarity, instead of non-infringement as a matter of law, the
District Court found for Petitioner.
III. This Court should determine whether it is reliable
that a real party in interest serving as an expert
witness would purely opine, using a soft science,
against said interest?
The District Court found that Petitioner disputed
Furth’s testimony instead of her opinion summary, but crossexamination is the proper challenge to expert opinion
evidence. App. D p. 10-11 footnote. The District Court found
that Furth’s omission in her opinion summary, i.e. timetravel, was the hook, central and most significant and
representative. App. D p. 20-21. In effect, the District Court
found that Furth omitted a material fact from her summary
opinion evidence and misrepresented the same material fact
in her cross-examination testimony.
This Court has previously taken aim, in two landmark
cases, to prevent parties from introducing pseudoscientific
evidence or junk science in the court of law.
In Daubert, This Court established a gatekeeper
standard, or test, to assess whether an expert witness’s
scientific testimony is based on scientifically valid reasoning,
that which can properly be applied to the facts at issue; and
how a trial judge must consider an expert witness’ opinion and
methodology to determine if we are in the presence of
“scientific
knowledge.”
Daubert
v.
Merrell
Dow
Pharmaceuticals, Inc., 509 U.S. 579, 580 (1993).
1. Can the scientific methodology be tested? Or has it been
tested?

16

2. Was the methodology subjected to peer review and
publication?
3. What is the known or possible error rate?
4. Are there standards controlling its operation? And were they
adhered?
5. Is there a widespread acceptance of the technique within the
scientific community?
A landmark shift of the cross-examination of expert witnesses
occurred in Daubert, inextricably linking expert evidence to their
testimony on cross-examination.
“Cross-examination, presentation of contrary
evidence, and careful instruction on the burden of
proof, rather than wholesale exclusion under an
uncompromising ‘general acceptance’ standard, is
the appropriate means by which evidence based on
valid principles may be challenged.” Id.
This is especially true for soft sciences such as a close
reading defined as:
“Close reading depends upon inductive reasoning.
In other words, beginning with all of the facts
presented in the text, weighing them carefully and
without bias, and then drawing solid, evidencebased conclusions.”
In Kumho, This Court broadened the scope of the
Daubert test to apply to soft sciences- in an effort to frustrate
those conclusions derived from junk sciences or a
pseudoscience from reaching the trier of fact. Kumho Tire Co.
v. Carmichael, 526 U.S. 137.
Here, The District Court did not carefully consider This
Court’s instructions in Daubert and Kumho by not properly
performing the Daubert test. Soft sciences, such as a close
reading, are subject to the same scrutiny that scientific
evidence is scrutinized. Had the District Court considered

17

whether a Rule 1006 summary, derived from all material facts
presented in the text, could be tested, Respondent King’s own
writings contained in the work purported to have been
summarized are the appropriate challenges on crossexamination. Respondent King plainly writes, in the
purportedly summarized works, that Roland time-travels
from Earth which is the reason why the District Court found
that Roland does time-travel.
Respondents do not dispute that Furth previously made
material factual representations in The Complete
Concordance, an encyclopedia the Furth authored, that are at
conflict with Furth’s made-for-litigation opinion.
Furth previously summarized The Dark Tower in this
encyclopedia. Furth previously wrote that Roland aims time
like a gun, which she defined as time-traveling to a when or
where of his choosing. In the encyclopedia, Furth also defined
Mid-World as future Earth and that Roland travels to and
from the future to the past. Furth also bed when she testified
Mid-World was not Earth. Lying about being from Earth and
not being a time-traveler gave new contexts to the work. App.
Ap. 18.
“An additional consideration under Rule 702 —
and another aspect of relevancy — is whether
expert testimony proffered in the case is
sufficiently tied to the facts of the case that it will
aid the jury in resolving a factual dispute.” United
States v. Downing, 753 F. 2d 1224, 1242 (6th Cir.
1985).
Like the Eleventh Circuit, Respondents’ expert witness
Robert Gale admits that he did not read The Dark Tower.
Rather, Gale read Furth’s summary opinion, but Gale
concluded that Roland repeatedly time-travelled to four
different times. By contrast, Marty McFly also time-travels to
four specific times. But, how could Gale reach this conclusion,
similar to the Eleventh Circuit, when time-travel is omitted

18

from Furth’s summary opinion? It is because Gale received
“specific clarifying details... through attorney Vincent Cox
who served as a go-between between [Gale] and Robin Furth”.
Gale could not have guessed at these facts.
“Nothing in either Daubert or the Federal Rules of
Evidence requires a district court to admit opinion
evidence that is connected to existing data only by
the ipse dixit of the expert.” General Electric Co. v.
Joiner, 522 U.S. 136, 137 (1997).
The District Court, by finding that Furth is financially
interested, effectively found that Furth’s testimony is
untrustworthy. Furth’s financial interest affects reliability
when Furth chooses to lie. Liars are inherently unreliable.
“Critics are not merely alleging that financial
interest biases experts at a subconscious level;
they go further and aver outright fraud and
perjury.” Edward J. Imwinkelried, The Worst
Evidence Principle: The Best Hypothesis as to the
Logical Structure of Evidence Law, 46 U. Miami L.
Rev. 1069, 1089 (1992).
Had Furth told the truth about her financial interest,
her evidence would be at odds with the peer standards
controlling the operation of her proffered methodology, by her
own testimony- rendering it methodologically flawed. Furth
testified “if the person performing the analysis has a financial
interest in the work being analyzed... the work produced
would be discredited.” Furth admits that she read the
Amended Complaint in this action before preparing her
opinion summary. Furth just avoided incriminating evidence.
“[T]he Fifth Amendment ‘not only protects the
individual against being involuntarily called as a
witness against himself [or herself] in a criminal
prosecution but also privileges him [or her] not to

19

answer official questions put to him in any other
proceeding, civil or criminal, formal or informal,
where the answers might incriminate him [or her]
in future criminal proceedings.’” Baxter v.
Palmigiano, 425 U.S. 308, 316 (1976).
Furth admits that she is the author of The Dark Tower
comic books. The lower Courts found her to be a real party in
interest. Copyright Infringement is also a criminal offense. 17
U.S.C. 506(A) and 18 U.S.C. 2319. This begs the question. Can
a real party in interest be relied on to testify against
incriminating evidence that may lead to the expert being held
criminally or civilly responsible for copyright infringement?
Furth knew what the material facts were that she must
conceal to protect, what amounts to, virtually her entire life’s
income. How could Furth be expected to reliably opine to
inconvenient evidence in these stakes? Furth did not here.
Notably, Furth does not assert that her opinion is an accurate
summary of the work, just that the summary opinions are her
own. If not an accurate summary, how can it be reliable?
IV.

This Court needs to resolve this conflict because
these issues are of constitutional importance.

The Court’s determination of this issue will affect
intellectual property discovers’ Seventh Amendment right to
trial by jury. Juries—not judges—decide factual disputes in
copyright cases. Feltner, 523 U.S. at 355.
“Maintenance of the jury as a fact-finding body is
of such importance and occupies so firm a place in
our history and jurisprudence that any seeming
curtailment of the right to a jury trial should be
scrutinized with the utmost care.” Dimick v.
Schiedt, 293 U.S. 474, 486 (1935).

20

“The right of jury trial in civil cases at common law
is a basic and fundamental feature of our system
of federal jurisprudence which is protected by the
Seventh Amendment. A right so fundamental and
sacred to the citizen, whether guaranteed by the
Constitution or provided by statute, should be
jealously guarded by the courts.” Jacob v. New
York, 315 U.S. 752, (1942).
The lower Courts erred when not carefully considering
Restin’s aggregation of traits in the absence of the prior art.
Congruence of the original and important parts is not non­
infringement as a matter of law. Rather, it is infringement
because a substantial part of Restin Dane’s original elements,
his essential elements, have been appropriated outside of the
excepted uses. However, questions of fact are Constitutionally
bound for the juries’ perception as lay observers.
“We hold these truths to be self-evident, that all men are
created equal, that they are endowed by their Creator with
certain unalienable Rights, that among these are Life, Liberty
and the pursuit of Happiness.” Declaration of Independence.
The true question for This Court is whether all discoverers
are treated equally under the United States Constitution?
V.

This case presents exceptionally important
issues and is an ideal set of facts for equal
protection under the law.

Uniform Federal Copyright Law is vital to equal
protection under the law. Equal protection under the law
begins with uniform rules, doctrines and laws that govern
such protection. Here, the lower courts have found for
Petitioner when applying the standards for copyrightability of
comic book characters and what constitutes infringement that
have been otherwise universally applied for nearly 100 years.

21

“The objective of the Copyright Clause was clearly
to facilitate the granting of rights national in
scope.” Goldstein v. California, 412 U.S. 546, 555
(1973).
Respondent Marvel is an ideal party to litigate the
standard for comic book character copyrightability because if
a second comer can appropriate the original and essential
aggregations of Restin Dane’s traits, a second comer can
appropriate the original and essential aggregations of
Spiderman’s traits, or any of Respondent Marvel’s 7,000
comic book characters- due to the Constitutionally mandated
maxim of equal protection.
“The limited monopoly granted to the artist is
intended to provide the necessary bargaining
capital to garner a fair price for the value of the
works passing into public use.” Stewart v. Abend,
495 U.S. 207, 229 (1990).
Not granting the Writ, will perpetuate uncertainty in
the Courts over these important issues. Respondents,
themselves, may not be properly incentivized for their
creative discoveries should second comer accept This Court’s
silence as acceptance, and decide to reproduce any or all of
Marvel’s characters by writing new stories and creating new
contexts. The Constitution’s framers drafted our charter to
ensure that what is good for the goose is good for the gander.
“The rights conferred by copyright are designed to
assure contributors to the store of knowledge a fair
return for their labors.” Harper & Row, 471 U.S.
539, 546 (1985).
There also, the Courts nearly unanimously hold that the
degree of similarity is a question of fact for the Jury to decide.

22

Here, the lower Courts imposed their subjectiveness in
reaching non-infringement as a matter of law, not by filtering
the aggregations through prior art and finding lack of
originality; not by determining de minimis use due to copying
of insignificant portions of Petitioner’s work and not by
finding parody or commentary or any prescribed fair use.
Which means, that the Eleventh Circuit did not properly
reach the conclusion of non-infringement as a matter-of-law.
Rather, the lower Courts decided that “different stories and
contexts”, App. A p. 18., is a new but not recognized exception
that deprives a discoverer of their exclusive right to derivative
works. Such a holding deprives Respondent Marvel of their
same rights for their body of comic book characters due to the
Constitutionally mandated maxim of equal protection.
This case is also the perfect case to address whether a
real party in interest can be expected to purely opine against
said interest. It would be difficult to imagine a clearer
example than this case, where This Court, when confronted
with a partisan disguised as an expert, would not preclude the
so-called-expert's testimony on the grounds that what little
probative value it has is outweighed by its hopelessly partisan
nature. That would permit advocacy in lieu of objectivity.
CONCLUSION.
Furth employed a pseudoscience that was neither
supported by the text in the works or her testimony on the
omissions of the evidence. The District Court and Gale did not
rely on Furth’s material fact-absent evidence, otherwise the
District Court and Gale would have found that Roland does
not time-travel. Furth is a real party in interest disguised as
an expert. Furth lied because Furth’s financial interest
discredited a close reading methodology according to Furth.
Respondents moved under the premise that the
elements Petitioner seeks to protect are not part of Roland;

23

nor that those elements are essential to Restin. Yet, both
Courts found congruence in the original aggregation of traits
that are essential to Restin. There is infringement.
Differences in the context of the stories curtails a
discoverer’s Constitutional right to a monopoly, for a limited
time, over those discoveries in new stories and contexts.
The Courts are not free to impose their subjectiveness
where Constitutional rights are concerned. Should This Court
hold otherwise, the threshold is substantial similarity
because neither Court was persuaded that Roland Deschain
was independently created free of access to Restin Dane.
Substantial similarity, in its simplest form, means that
a substantial part of the original aggregations of traits of
Petitioner’s copyrighted character were appropriated outside
the de minimis rule or the doctrine of fair use. When applied
carefully, the lower Courts have found that the essential
characteristics of Petitioner’s copyrighted character are
reproduced. It was a unique combination as depicted. There is
infringement under, what would otherwise be, uniform
Copyright Law.
Respectfully, the Courts have found for Petitioner.
These truths are self-evident. The District Court’s and Circuit
Court’s Orders are Un-Constitutional ab initio.
Petitioner’s writ should be granted.

Respectfully Submitted,

Benjamin M. DuBay, Ppo Se
Date: July 8, 2021

